Divulgación de Apertura de Cuenta de Tarjeta de Crédito de Popular Bank Preferred Emitida por Banco Popular
de Puerto Rico
Tasas de Interés y Cargos por Intereses

Tasa de Porcentaje Anual
(APR) para Compras

APR para Transferencias de
Balance

0% APR introductorio por los primeros 12 meses.
Luego de esto, su APR será desde 13.24% hasta 26.24%, basado en su
historial de crédito.
Este APR puede variar de acuerdo al mercado basado en la Tasa Preferencial
de los Estados Unidos (“Prime Rate”).1
0% APR introductorio y 0 pagos por los primeros 12 meses. Aplica a
transferencias realizadas dentro de los primeros 90 días de la apertura de la
cuenta.

Luego de esto, su APR será desde 13.24% hasta 26.24%, basado en su
historial de crédito. Este APR puede variar de acuerdo al mercado basado en
el “Prime Rate”.1
APR para Adelantos en
24.24% hasta 28.24%, basado en su historial de crédito.
Efectivo
Este APR puede variar de acuerdo al mercado basado en el “Prime Rate”.1
APR de Penalidad y Cuándo
29.99%
Aplica
Este APR podrá aplicar a su cuenta si no recibimos el pago mínimo requerido
durante un periodo de sesenta (60) días consecutivos desde su vencimiento.
¿Por cuánto tiempo aplica la Tasa por Penalidad? Si su APR aumenta por
esta razón, la Tasa de Penalidad permanecerá en efecto hasta que la cuenta
se ponga al día y se hayan realizado seis (6) pagos mínimos consecutivos en
o antes de su fecha de vencimiento.
Pago de Intereses
Su fecha de pago será por lo menos 25 días luego del cierre de cada ciclo de
facturación. No cobraremos intereses desde la fecha que compre bienes o
servicios, si usted paga el balance total adeudado de su cuenta en o antes de
la Fecha de Vencimiento. Si no paga el balance total adeudado, pero se
encuentra en periodo de gracia, no pagará intereses sobre el monto pagado en
ese ciclo de facturación. En los ciclos posteriores usted no tendrá periodo de
gracia hasta que pague el balance total adeudado en su cuenta durante dos
ciclos de facturación consecutivos. Los balances relacionados a ciertas ofertas
no se toman en cuenta para determinar si califica para el periodo de gracia, para
las cuales debe referirse a los términos y condiciones de la oferta. Los intereses
respecto a adelantos en efectivo, transferencias de balance de otras
instituciones y cheques de conveniencia se impondrán desde la fecha en que
se realice la transacción.
Para Consejos del “Consumer Para conocer más sobre factores a considerar cuando solicita o utiliza una
Financial Protection Bureau” tarjeta de crédito, visite la página de Internet del “Consumer Financial
sobre Tarjetas de Crédito
Protection Bureau” en http://www.consumerfinance.gov/learnmore
Cargos
Cuota Anual
Cargos por Transacciones
• Adelantos en Efectivo y
Cheques de Conveniencia
• Transferencias de
Balance
• Conversión de Moneda
Cargos por Penalidad
• Cheque Devuelto
• Pago Tardío

$95 Cuota Anual
$0 Cargo por Tarjeta Adicional (si aplica)
2% de la cantidad de cada transacción (mínimo $2; máximo $10)
2% de la cantidad de cada transferencia (mínimo $2; máximo $10)
1.4% de cada transacción en dólares para Mastercard

Hasta $10
Hasta $38

Cómo calculamos su balance: Utilizamos el método llamado “balance promedio diario” (incluyendo transacciones nuevas).
Pérdida de APR Introductorio: Podemos terminar su APR de introducción y aplicar el APR correspondiente si cierra su
cuenta o hace un pago tardío.

Derechos de Facturación: Información sobre cómo ejercer su derecho a disputar transacciones se incluye en el Contrato
de Tarjetas de Crédito.

La información sobre los costos de las tarjetas descritas es correcta al 29 de febrero de 2020. Esta información puede
haber variado después de esta fecha. Para verificar lo que puede haber variado en dicha información puedes llamar al
1-888-333-8930 o escribir a la siguiente dirección:
Popular Credit Services

PO BOX 363228
San Juan, PR 00936-3228

AVISO IMPORTANTE USA PATRIOT ACT
El 1 de octubre de 2003 entró en vigor la Sección 326 de la ley USA PATRIOT. Esta ley requiere que las
instituciones financieras obtengan, verifiquen y registren la información que identifica a las personas que abren
cuentas. El gobierno de Estados Unidos creó esta ley como una medida contra el terrorismo y el lavado de
dinero.
Cuando solicite una cuenta:
• Se le preguntará su nombre, dirección residencial o física, fecha de nacimiento, número de seguro social y
cualquier otra información que permita identificarle con certeza.
• Se le requerirá que muestre su licencia de conducir u otra identificación con foto, vigente y emitida por el
gobierno.
Gracias por permitirnos servirle. La información recopilada por Popular Inc. será mantenida confidencialmente
según lo requiere la Ley de Privacidad.
Para cada periodo de facturación el Cargo por Intereses y el APR se determinan utilizando el "Prime Rate"
vigente publicado en The Wall Street Journal, más un margen. Las tasas variables indicadas están basadas en
la tasa preferencial de 3.25% vigente desde el 16 de marzo de 2020.
1

CONDICIONES
Las palabras "usted" y "su" aplican a cada persona que presenta esta solicitud. Usted representa que Usted (1)
ha leído la solicitud adjunta, y certifica que todo lo que ha dicho es cierto y en su totalidad; (2) que es residente
permanente de los Estados Unidos y que cumple con los requisitos estatales de edad mínima para contratar.
Usted entiende que usted no será capaz de hacer cualquier cambio a los términos de esta solicitud o al Acuerdo
de Tarjeta de Crédito.
Al someter esta solicitud, usted autoriza a Banco Popular de Puerto Rico (en adelante "nosotros" o "nuestro") (1)
obtener sus informes de crédito, historial laboral y cualquier otra información con el fin de aprobar o rechazar
esta solicitud, darle servicio a su cuenta y manejar nuestra relación con usted; (2) compartir información sobre
usted y su cuenta con la organización, si fuera el caso, para el manejo de este programa de tarjeta de crédito;
(3) compartir con los demás, en la medida permitida por ley, dicha información y nuestra experiencia de crédito
con usted; (4) directamente o a través de cualquiera de nuestras afiliadas, o nuestros asociados de mercadeo,
monitorear y/o grabar sus conversaciones telefónicas con nosotros o con cualquiera de nuestros representantes
y (5) comunicarse con usted en cualquier número que usted nos haya proporcionado, del cual nos llame o que
obtengamos y creamos que podamos contactarlo, llamando o enviando mensajes de texto incluyendo a través
de un marcador automático o mensajes pre-grabados. Podemos llamarlo o enviarle un correo electrónico en un
dispositivo móvil, inalámbrico o similar, aún cuando su proveedor le cobra por el mismo.
Si nosotros aprobamos y utiliza su cuenta, usted está de acuerdo a (1) estar sujeto a los términos de esta
solicitud, los "Detalles de la Tasa, Cargos y Otra Información de Costos" y el Acuerdo de Tarjeta de Crédito,
según pueda ser modificada; (2) pagar y/o ser responsable conjuntamente y solidariamente a todos los cargos
incurridos bajo tales términos.

Información adicional para residentes de los siguientes estados:
Residentes de California: Como lo requiere la ley, de usted no cumplir con su obligación crediticia, pudiéramos
reportar a las agencias de crédito información adversa que se reflejará en su historial de crédito.

Solicitudes de crédito para obtener dinero, objetos, labor o servicios deben especificar claramente que el solicitante, si
está casado, puede solicitar para una cuenta por separado.
Residentes de Delaware: Cargos por servicios que no excedan lo permitido por ley serán facturados en el balance
adeudado mes a mes.
Residentes de New York: Se pueden comunicar con el Departamento de Servicios Financieros del Estado de Nueva
York por teléfono (1-800-342-3736) o visite su sitio web (www.dfs.ny.gov) para obtener información gratuita relacionado
a comparativas en tasas, cargos y periodos de gracia parta tarjetas de crédito.
Informes de crédito pudieran ser solicitados en respuesta con su solicitud y la cuenta que resulte de esta. Si dicho informe
de crédito fue solicitado, usted será informado del nombre y la dirección de la agencia de información de crédito que
proporcionó el informe.

Residentes de Oregón: El cargo por servicio será computado considerando el balance adeudado para cada mes (el
cual pudiera no ser un mes calendario) u otro periodo regular acordado, el itinerario o tasa utilizada para calcular el
cargo por servicio y que el cliente puede en cualquier momento pagar la totalidad del balance adeudado.
Residentes de Ohio: Las leyes del estado de Ohio en contra de la discriminación, exigen que todos los acreedores
ofrezcan igualdad de disponibilidad de crédito para todos los clientes con capacidad crediticia y que las agencias de
crédito mantengan separado el historial de crédito de cada individuo, según se solicite. La Comisión de Derechos Civiles
de Ohio administra el cumplimiento de esta ley.
Residentes de Rhode Island: Usted puede solicitar copia de su informe de crédito relacionado a la tramitación de una
solicitud o posteriormente para fines de revisión o cobro de la cuenta, aumento de la línea de crédito de la cuenta, o
para otros fines legítimos asociados con la cuenta.
Residentes de Utah: Como es requerido por la ley de Utah, de usted no cumplir con su obligación crediticia,
pudiéramos reportar a las agencias de crédito información adversa que se reflejará en su historial de crédito.
Residentes de Vermont: Pudiéramos obtener un reporte de crédito adicional u otra información sobre usted
relacionado a la misma transacción o extensión de crédito con el propósito de revisar su Cuenta, aumentar el Límite de
Crédito de su Cuenta, con el propósito de realizar gestiones de cobro de su Cuenta, o cualquier otro propósito legítimo
asociado con su Cuenta.
Residentes de Wisconsin: Ninguna disposición de un contrato de bienes matrimoniales, declaración unilateral en virtud
de la Sección 766.59 de los Estatutos de Wisconsin, o decreto judicial en virtud de la Sección 766.70 de los Estatutos de
Wisconsin, afectará adversamente el interés del acreedor, a menos que el acreedor, antes de conceder el crédito, reciba
una copia del contrato, declaración o decreto o tenga conocimiento de la disposición adversa cuando se incurre en la
obligación al acreedor. Podríamos notificar de la apertura de cualquier cuenta de crédito a su cónyuge. Residentes
casados de Wisconsin deberán presentar el nombre y la dirección de su cónyuge a: Popular Credit Services PO BOX
363228, San Juan, PR 00936-3228. Si usted es un residente de Wisconsin casado, el crédito extendido bajo esta cuenta
se otorgará tomando en consideración el mejor interés de su matrimonio o familia.

